Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    NURSE AIDE REGISTRIES: 

   LONG TERM CARE FACILITY 

  COMPLIANCE AND PRACTICES





                    Daniel R. Levinson 

                     Inspector General 


                       July 2005

                     OEI-07-04-00140

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a Nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y                                                 





                  OBJECTIVE
                  To determine (1) the extent to which long term care (LTC) facilities
                  report that they are in compliance with Federal regulations as related
                  to the use of State nurse aide registries, and (2) what additional
                  procedures LTC facilities have established to screen nurse aides.


                  BACKGROUND
                  Federal regulations (42 CFR § 483.156) require each State and the
                  District of Columbia to maintain a nurse aide registry of all individuals
                  who are registered to work as nurse aides in that State, as well as all
                  individuals who have been prohibited from employment as nurse aides
                  in LTC facilities due to substantiated adverse findings of abuse, neglect,
                  or misappropriation of property.

                  Federal regulations (42 CFR § 483.13(c)(1)) prohibit LTC facilities from
                  employing individuals who have a substantiated adverse finding
                  entered into the State nurse aide registry or who have been found guilty
                  in a court of law of abusing, neglecting, or mistreating LTC facility
                  residents. Federal regulations (42 CFR § 483.75 (e)(5)) require LTC
                  facilities to check their State nurse aide registry to ensure that potential
                  nurse aides are registered. The LTC facilities must also check every
                  other State nurse aide registry they believe will include any information
                  on that individual (42 CFR § 483.75(e)(6)). In addition, Federal
                  regulations (42 CFR § 483.75(e)(2)) prohibit LTC facilities from using
                  [employing] any individual as a nurse aide for more than 4 months
                  unless that individual is registered as a nurse aide.

                  This study was based on questionnaire responses from a simple random
                  sample of 200 LTC facility administrators, as well as nurse aide
                  employment information from each of these facilities. We evaluated all
                  nurse aides’ records to determine if they were registered or had
                  substantiated adverse findings on nurse aide registries.


                  FINDINGS
                  Long term care facility administrators reported checking their State
                  nurse aide registries before hiring, as Federal regulations require;
                  the registry results affected some hiring decisions. All LTC facility
                  administrators reported checking their State nurse aide registries prior
                  to hiring nurse aides. Furthermore, we did not identify any nurse aides
OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                         i
E X E C U T I V E                        S U           M M A R Y


                   with substantiated adverse findings of abuse, neglect, or
                   misappropriation of property entered on the nurse aide registry of the
                   State in which they were employed. Forty-four percent of
                   administrators reported periodically rechecking employed nurse aides
                   against their State nurse aide registry to ensure that substantiated
                   adverse findings had not been posted to the registry.
                   Fifty-five percent of administrators reported checking only their own
                   State registry and thus are most likely not in compliance with
                   Federal regulations. In a 2005 OIG study “Nurse Aide Registries:
                   State Compliance and Practices” (OEI-07-03-00380), we found that
                   approximately 99,000 nurse aides had active registrations in multiple
                   States, that 1,552 nurse aides had substantiated adverse findings, that
                   450 nurse aides had pending findings in one State and an active
                   registration in another State, and that 314 nurse aides had
                   substantiated adverse findings in multiple States. These findings
                   support the importance of LTC facilities’ checking other States’
                   registries that they believe will include information on a nurse aide to
                   ensure that employed nurse aides do not have substantiated adverse
                   findings.
                   Seventeen percent of LTC facilities employed individuals as nurse
                   aides without required registrations. Fifteen percent of LTC facilities
                   employed individuals without registrations as nurse aides for longer
                   than 4 months. Five percent of LTC facilities employed individuals with
                   expired registrations due to State regulations; of these, half also
                   employed nurse aides for longer than 4 months without registration.
                   The LTC facilities that employ nurse aides without registrations are not
                   in compliance with Federal regulations.
                   Eighty-five percent of administrators reported establishing
                   additional screening procedures; some of these methods may not
                   be fully effective. The LTC facility administrators reported
                   establishing various procedures in attempts to ensure that they do not
                   hire or employ individuals with court convictions or criminal
                   backgrounds. The most common screening procedures were criminal
                   background checks and/or personal and employment reference checks.
                   However, of the 159 LTC facilities that conducted criminal background
                   checks, 50 percent conducted checks that were limited in scope. Those
                   LTC facilities that conduct criminal background checks of limited scope
                   (e.g., covering only the State in which the LTC is located) may fail to
                   identify nurse aides who have criminal histories in other States.


 OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                          ii
E X E C U T I V E                        S U           M M A R Y 




                   RECOMMENDATIONS
                   Ensuring that only registered nurse aides without substantiated
                   adverse findings of abuse, neglect, or misappropriation are employed in
                   LTC facilities necessitates a partnership among States, the Centers for
                   Medicare & Medicaid Services (CMS), and LTC facilities. States and
                   LTC facilities must diligently comply with Federal regulations
                   regarding nurse aide registries. The LTC facilities that do not comply
                   with Federal regulations or do not use available information about
                   potential nurse aides could expose facility residents to greater risk of
                   harm. We recommend that CMS:
                   o 	 Utilize existing communication channels (e.g., survey and
                           certification processes) to ensure that LTC facilities comply with
                           Federal regulations that require them to check the nurse aide
                           registries of other States that they believe will contain
                           information about an individual prior to hiring and to not employ
                           individuals as nurse aides for more than 4 months without
                           registration.

                   o 	 Encourage LTC facilities to use available resources (e.g., State nurse
                       aide registries, background check services) to ensure that nurse
                       aides with substantiated adverse findings or criminal backgrounds
                       are not employed. Possible methods that CMS could use to achieve
                       this include: (1) requiring all LTC facilities to perform periodic
                       (e.g., annual or biennial) inquiries of State nurse aide registries on
                       employed nurse aides and (2) requiring comprehensive criminal
                       background checks by all LTC facilities prior to hiring nurse aides.
                       CMS concurred with a 1998 OIG recommendation that CMS
                       consider developing a Federal requirement for criminal background
                       checks. While no such requirement has yet been developed, the
                       Medicare Prescription Drug, Improvement, and Modernization Act
                       of 2003 (Public Law 108-173, section 307) established a Background
                       Check Pilot Program for long term care facilities or providers to
                       conduct background checks on prospective direct patient access
                       employees in up to 10 States. The results of this pilot will be
                       informative as to the viability of this second option.


                   AGENCY COMMENTS
                   In its comments to the draft report, CMS recognized the effort and
                   expressed appreciation for OIG’s work related to nurse aide registry
                   requirements. CMS concurred with our recommendations. CMS will

 OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                          iii
E X E C U T I V E                        S U           M M A R Y


                   issue a survey and certification letter to all State survey agencies asking
                   them to share the communication with all long term care facility
                   providers to reinforce the importance of checking nurse aide registries
                   and not allowing nurse aides to work for more than 4 months without
                   successfully passing a competency evaluation examination. In addition,
                   CMS will utilize the existing Background Check Pilot Program to
                   provide insight on further efforts to ensure that only nurse aides in good
                   standing are employed in long term care facilities.


                   OIG RESPONSE
                   We appreciate CMS’s comments to this report and note that CMS is
                   taking action to address issues raised in this report. We look forward to
                   learning the results of the Criminal Background Check Pilot Program.
                   Changes were made to the report to reflect technical comments received
                   from CMS.




 OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                          iv
Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY ........................................                                                               i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 6

                    Checking State registries before hiring . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                    Checking other State registries before hiring . . . . . . . . . . . . . . . . . . . 7 


                    Employing nurse aides without registrations . . . . . . . . . . . . . . . . . . . 8 


                    Additional screening procedures. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    A: Required Components of State Nurse Aide Registries . . . . . . . 16 


                    B: Confidence Intervals for Key Estimates . . . . . . . . . . . . . . . . . . . . 17 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

I N T R O D        U C T             I O N
Δ    I N T R O D U C T I O N                                                      



                    OBJECTIVE
                    To determine (1) the extent to which long term care (LTC) facilities
                    report that they are in compliance with Federal regulations as related
                    to the use of State nurse aide registries, and (2) what additional
                    procedures LTC facilities have established to screen nurse aides.


                    BACKGROUND
                    Federal Requirements.
                    The Omnibus Budget Reconciliation Act of 1987 contained provisions
                    designed to ensure delivery of quality care to LTC facility residents.1
                    Federal statute (42 U.S.C. § 1395i-3) and regulations require each State
                    and the District of Columbia (hereinafter referred to as a State) to
                    maintain nurse aide registries of all individuals who are registered to
                    work as nurse aides in that State (i.e., all individuals who have
                    completed nurse aide training and/or whom the State deems competent
                    to function as a nurse aide2), as well as all individuals who have been
                    prohibited from employment as nurse aides in LTC facilities because of
                    substantiated adverse findings of abuse, neglect, or misappropriation of
                    property.3 Nurse aide registries are intended to ensure that LTC
                    facilities employ only registered nurse aides who do not have
                    substantiated adverse findings. (For a description of the components of
                    nurse aide registries as required by Federal regulation, see
                    Appendix A.)

                    Federal regulations prohibit LTC facilities from employing individuals
                    who have had a finding of abuse, neglect, mistreatment of residents, or
                    misappropriation of residents’ property entered into the State nurse




                    1 We refer to nursing homes and skilled nursing facilities as long term care (LTC) facilities

                      in this report.
                    2 42 CFR § 483.75(e) defines a nurse aide as “any individual providing nursing or

                      nursing-related services to residents in a facility who is not a licensed health professional,
                      a registered dietitian, or someone who volunteers to provide such services without pay.”
                    3 42 CFR § 488.301 defines abuse as “the willful infliction of injury, unreasonable
                      confinement, intimidation, or punishment with resulting physical harm, pain or mental
                      anguish.” Neglect is defined as “failure to provide goods and services necessary to avoid
                      physical harm, mental anguish, or mental illness.” Misappropriation of resident property
                      is defined as “the deliberate misplacement, exploitation, or wrongful, temporary or
                      permanent use of a resident’s belongings or money without the resident’s consent.”



 OEI-07-04-00140    N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                           1
I N T R O D        U C T             I O N 





                    aide registry or who have been found guilty in a court of law of abusing,
                    neglecting, or mistreating LTC facility residents.4 Information
                    regarding court convictions may or may not be included on State nurse
                    aide registries. Federal regulations require LTC facilities to check the
                    State nurse aide registry for all hired nurse aides and to check every
                    State nurse aide registry that they believe will include information on
                    an individual.5
                    Federal regulations allow nurse aides to work for up to 4 months before
                    becoming registered in the State in which they are working to provide
                    sufficient time for their training. However, individuals must become
                    registered within 4 months to continue working as nurse aides. 6
                    Other Studies Found Weaknesses With Nurse Aide Registries.
                    Previous studies of nurse aide registries identified a number of
                    weaknesses with nurse aide registry practices in some States and
                    indicated that State compliance with Federal nurse aide registry
                    regulations was inconsistent. A 2005 Office of Inspector General (OIG)
                    study addressed State compliance with nurse aide registry
                    requirements and examined the accuracy of nurse aide registry
                    information.7 That study found that some States failed to update their
                    nurse aide registries timely with substantiated adverse findings and
                    that inactive nurse aides were not removed from some nurse aide
                    registries, as Federal regulations require. Further, OIG found that
                    some States charged an access fee or limited the number of nurse aide
                    records that could be requested per access. States had concerns
                    regarding the usefulness of nurse aide registries to LTC facilities and
                    whether facilities checked the nurse aide registry for all hired nurse
                    aides.

                    Although criminal background checks are not required by Federal
                    statute or regulation,8 such checks can enable LTC facilities to comply
                    with the Federal requirement that such facilities not hire nurse aides

                    4 42 CFR § 483.13(c)(1). 

                    5 42 CFR §§ 483.75(e)(5) and (6).

                    6 42 CFR § 483.75(e).

                    7 “Nurse Aide Registries: State Compliance and Practices.” Office of Inspector General, 

                      OEI-07-03-00380.
                    8 Public Law 108-173, Section 307 established a Background Check Pilot Program for LTC
                      facilities or providers to conduct background checks on prospective direct patient access
                      employees in 10 States.



 OEI-07-04-00140    N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                           2
I N T R O D        U C T             I O N


                    who have been found guilty in a court of law of abusing, neglecting, or
                    mistreating residents. A 1998 OIG audit reported that, in most States,
                    criminal background checks for nurse aides were limited to State
                    records, and some individuals with criminal histories were not recorded
                    on nurse aide registries.9 OIG recommended that the Centers for
                    Medicare & Medicaid Services (CMS) work with the Administration on
                    Aging and the States to improve the safety of LTC facility residents and
                    to strengthen safeguards against employment of abusive workers.


                    METHODOLOGY
                    This study was based on information from multiple sources:
                    (1) a review of Federal statutes and regulations regarding nurse aide
                    registries, (2) a review of the existing literature and previous studies on
                    nurse aide registries, (3) questionnaire responses from a simple random
                    sample of 200 LTC facility administrators, and (4) nurse aide
                    employment information from each of the 200 sampled LTC facilities.
                    Sample Selection.
                    We selected a simple random sample of LTC facilities from the
                    population of such facilities contained in the Online Survey,
                    Certification and Reporting (OSCAR) database as of March 26, 2004.
                    Our sample consisted of 200 of the 16,261 LTC facilities in the
                    51 States.
                    LTC Facility Administrator Questionnaire.
                    The administrators of each of the 200 LTC facilities completed a mail
                    questionnaire regarding the practices, policies, and procedures they
                    followed in checking potential and employed nurse aides on nurse aide
                    registries. We analyzed the questionnaire data to determine LTC
                    facilities’ reported compliance with Federal regulations and the types of
                    additional procedures LTC facilities had instituted to screen potential
                    nurse aides.
                    Nurse Aide Employment Information.
                    From each of the 200 LTC facilities, we requested information on all of
                    the nurse aides employed by the facility on September 1, 2003. The
                    information requested included the full name, Social Security number,
                    date of birth, registration number, and the beginning and ending dates
                    of employment for each nurse aide. We received employment


                    9 “Safeguarding LTC Residents.” Office of Inspector General, A-12-97-00003, 09/98.




 OEI-07-04-00140    N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                           3
I N T R O D        U C T             I O N


                    information from all 200 LTC facilities, for a total of 8,123 nurse aides.
                    We also requested documentation of the LTC facilities’ verification(s) of
                    each nurse aide’s registration.

                    As part of the 2005 OIG study reviewing State compliance with nurse
                    aide registry requirements, we received complete nurse aide registries
                    from all States as of September 1, 2003. We matched the 8,123 nurse
                    aides hired prior to September 1, 2003, with the 51 State nurse aide
                    registries to determine if any nurse aides had a substantiated adverse
                    finding of abuse, neglect, or misappropriation of property.

                    Because Federal regulations allow individuals to work for up to
                    4 months before becoming registered as nurse aides, our analysis
                    regarding registration included only those individuals who were hired
                    before May 1, 2003. By removing the 1,529 nurse aides hired by the
                    200 LTC facilities between May 1 and September 1, 2003, the number of
                    nurse aides included in our analysis was reduced from 8,123 to 6,594.
                    We matched the 6,594 nurse aides with the 51 State nurse aide
                    registries to ensure they were registered as of September 1, 2003. For
                    any nurse aide we could not match in the 51 State nurse aide registries
                    due to incorrect Social Security numbers and/or incorrect names, we
                    recontacted the LTC facilities to either verify or obtain correct
                    identifying information. We queried the nurse aide registries a second
                    time in August 2004 using the corrected identifying information.

                    We determined that an LTC facility was not in compliance with Federal
                    regulations if it employed one or more nurse aides without registration.
                    Limitations of Identifying Nurse Aides Without Registrations or With
                    Substantiated Adverse Findings.
                    It is possible that some LTC facilities may not have provided
                    employment information on all of their nurse aides. In an attempt to
                    identify LTC facilities that may have provided incomplete information,
                    we compared the number of nurse aides each facility provided with the
                    number of nurse aides listed in the OSCAR database. To ensure that a
                    complete list of nurse aides had been provided, we identified extreme
                    outliers and contacted the nine LTC facilities that provided employment
                    information for less than half the number of nurse aides listed in the
                    OSCAR database. To ensure that the information provided by the LTC
                    facilities included only nurse aides and not other LTC facility staff, we
                    also contacted the 14 LTC facilities that provided employment
                    information for more than twice the number of nurse aides listed in the
                    OSCAR database. The LTC facility administrators either provided

 OEI-07-04-00140    N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                           4
I N T R O D        U C T             I O N


                    updated lists of nurse aides or stated that the information they
                    originally provided was correct. We then repeated the matching process
                    with any new information provided.
                    Standards.
                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency.




 OEI-07-04-00140    N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                           5
Δ   F I N D I N G S 


Long term care facility administrators reported             Federal regulations require
     checking their State nurse aide registries             LTC facilities to check their
    before hiring; the registry results affected            State nurse aide registry to
                                                            ensure that all hired nurse
                         some hiring decisions
                                                            aides are registered.10 Federal
                  regulations also require that LTC facilities must not employ individuals
                  whose records contain substantiated adverse findings.11
                  All LTC facility administrators reported that they checked their own
                  State nurse aide registry to ensure that potential nurse aides are
                  registered. In fact, 42 administrators reported not hiring a potential
                  nurse aide because of the results of a registry inquiry. Furthermore,
                  when we matched the employment information for the 8,123 nurse aides
                  that the 200 LTC facility administrators supplied with the appropriate
                  State nurse aide registry, we did not identify any nurse aides with
                  substantiated adverse findings of abuse, neglect, or misappropriation of
                  property entered on the nurse aide registry for the State in which they
                  were employed. Given this evidence, it seems likely that LTC facility
                  administrators are in compliance with Federal requirements prohibiting
                  the employment of nurse aides with substantiated adverse findings.

                  Although not required to do so, 44 percent of administrators reported
                  rechecking employed nurse aides against their State nurse aide registry
                  to ensure that substantiated adverse findings had not been posted to the
                  registry. (See Appendix B for confidence intervals for all point
                  estimates.) The most commonly reported reason for this practice was
                  concern that nurse aides may be employed by more than one LTC
                  facility and could have substantiated adverse findings resulting from
                  actions at another facility. Of the 87 administrators who reported
                  rechecking the nurse aide registry for substantiated adverse findings
                  subsequent to hiring, 15 identified at least one nurse aide who had a
                  change of status (e.g., conviction of abuse at a previous job, failure to
                  attain registration, or failure to renew registration due to a change of
                  address), and 14 of these administrators terminated those nurse aides.12




                  10 42 CFR § 483.75(e)(5).
                  11 42 CFR § 483.13(c)(1).
                  12 The remaining LTC facility administrator reported that she may terminate nurse aides
                      based on the nature of the change identified.



OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                         6
F    I N D I N G        S            



    Fifty-five percent of administrators reported             In addition to requiring that they
     checking only their own State registry and               check their own State nurse aide
           thus are most likely not in compliance             registry, Federal regulations
                                                              require LTC facilities to check every
                       with Federal requirements
                                                              other State nurse aide registry they
                       believe will include any information on a potential nurse aide.13
                       Although “believe” is not specifically defined in regulation, employment
                       applications, reference checks, or background checks would provide LTC
                       facilities with clear evidence of the other State nurse aide registries that
                       might contain information about a potential nurse aide. In the
                       2005 OIG study, we identified approximately 99,000 nurse aides who
                       had registrations in multiple States, suggesting that interstate
                       movement of nurse aides is not uncommon. This finding supports the
                       importance of LTC facilities’ checking the registries of other States
                       before hiring a nurse aide.

                       When surveyed about checking other State registries, administrators
                       had the choice of choosing one of the following: (1) Yes, we check other
                       States’ registries; (2) No, we only check our own State registry; or
                       (3) No, we do not check any State registries. Fifty-five percent of
                       administrators selected option 2, reporting that they only check their
                       own State’s nurse aide registry prior to hiring a nurse aide.14 Given
                       that our prior studies clearly demonstrated that some nurse aides have
                       moved from one State to another, it is possible that LTC facilities have
                       at least some nurse aides who worked as nurse aides in other States
                       prior to seeking employment at their facility. Thus, LTC facilities that
                       reported checking only their own registry are likely not in compliance
                       with Federal regulations.

                       From our prior study,15 when we examined the universe of nurse aides,
                       we found that 1,552 nurse aides had substantiated adverse findings and
                       450 nurse aides had pending findings of abuse, neglect, or




                       13 42 CFR § 483.75(e)(6). 

                       14 The remaining administrators selected other responses. 

                       15 “Nurse Aide Registries: State Compliance and Practices.” Office of Inspector General, 

                           OEI-07-03-00380.



     OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                              7
F    I N D I N G        S


                       misappropriation of property in one State and an active registration in
                       another State;16 and 314 nurse aides had records with substantiated
                       adverse findings in multiple States.

                       Through our process of matching identifying information that the LTC
                       facilities provided for the 8,123 nurse aides against the 51 State nurse
                       aide registries, we identified a nurse aide who had a record with a
                       substantiated adverse finding from 1999 on the New Mexico nurse aide
                       registry and was employed in Texas on September 1, 2003. The
                       administrator of the Texas LTC facility reported that the facility does
                       not check other States’ nurse aide registries prior to hiring potential
                       nurse aides.


    Seventeen percent of LTC facilities employed               Fifteen percent of LTC facilities
              individuals as nurse aides without               employed at least one individual as a
                                                               nurse aide for longer than 4 months
                           required registrations
                                                               without registration.
                       Federal regulations prohibit LTC facilities from using [employing] any
                       individual as a nurse aide for more than 4 months unless that
                       individual is registered as a nurse aide.17 However, LTC facilities can
                       hire nurse aides for up to 4 months before they are registered, allowing
                       the individual to participate in a training program to become registered.
                       At the end of the 4 months, if an individual is not listed in the
                       appropriate State nurse aide registry, the LTC facility must follow up to
                       ensure that the individual actually becomes registered. Evidence of
                       registration is maintained in the appropriate State nurse aide
                       registry.18
                       On September 1, 2003, 15 percent of LTC facilities employed at least
                       one individual as a nurse aide for longer than 4 months without
                       registration, accounting for a total of 40 nurse aides. We queried the
                       nurse aide registries in August 2004 to verify whether these nurse aides
                       were listed as registered. We found that 29 nurse aides were still not
                       listed as registered and 11 nurse aides were listed as registered, but


                       16 Although Federal regulations do not require that nurse aides with pending findings of
                          abuse, neglect, or misappropriation of property be listed as such on their respective
                          registries, we include information about these 450 nurse aides because it suggests
                          information that LTC facilities could learn about nurse aides if registries in other States
                          were checked.
                       17 42 CFR § 483.75(e)(2).
                       18 42 CFR § 483.75(e)(5).




     OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                              8
    F   I N D I N G        S


                          their registration dates were after September 1, 2003. Thus these nurse
                          aides were employed without registration for more than 4 months, a
                          violation of Federal regulations. Despite the administrators of these
                          LTC facilities’ reporting that they had practices in place to ensure that
                          individuals without registrations are not employed for longer than
                          4 months (e.g., confirming registration by checking the nurse aide
                          registry after 4 months of employment, requiring nurse aides to provide
                          proof of registration, and completing the paperwork required to obtain
                          registrations for nurse aides), none of these LTC facilities could produce
                          documentation of registration for any of the nurse aides in question.
                          Five percent of LTC facilities (three percent of which are included above)
                          employed nurse aides with expired registrations.
                          Federal regulations require State nurse aide registries to remove
                          registrations for individuals who have performed no nursing or
                          nursing-related services for a period of 24 consecutive months (unless
                          the individual's registry record includes documented findings of abuse,
                          neglect, or misappropriation of property). However, some States have
                          established more stringent requirements that call for nurse aide
                          registrations to expire at regular intervals unless the nurse aide takes
                          action to renew his or her registration. We identified 5 percent of LTC
                          facilities that employed nurse aides with expired registrations that had
                          expired due to State requirements, accounting for 16 nurse aides. In
                          effect, these 10 LTC facilities employed nurse aides without valid
                          registrations, per State requirements. We could not confirm whether
                          these individuals met the Federal requirement for performing nursing
                          or nursing-related services in accordance with 42 CFR § 483.75(e).
                          Three percent of LTC facilities exhibited both conditions (employing
                          individuals as nurse aides without registrations and nurse aides with
                          expired registrations).


      Eighty-five percent of administrators reported              Federal regulations prohibit
establishing additional screening procedures; some                LTC facilities from employing
         of these methods may not be fully effective              any individual who has been
                                                                  found guilty of abusing,
                          neglecting, or mistreating residents by a court of law; 19 however, these
                          convictions are not necessarily recorded on a State’s nurse aide registry.
                          Although not required to do so by Federal regulation, some LTC facility

                          19 42 CFR § 483.13(c)(1)(ii)(A).




        OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                                 9
F   I N D I N G        S 



                      administrators reported establishing various procedures in attempts to
                      ensure that they do not hire or employ individuals with such
                      convictions.

                      In addition to checking the    Table 1: Screening Procedures of the
                      State nurse aide registry,               200 LTC Facilities
                      the most common                Check Conducted
                                                                                 Number of LTC
                      screening procedures, as                                       Facilities
                      reported by 85 percent of   Criminal Background
                                                                                                     91
                                                  Only
                      administrators, were
                      conducting criminal         Reference Only                                     10
                      background checks and/or    Criminal Background
                      checking personal and                                                          68
                                                  Check and Reference
                      employment references.
                                                  Neither                                            31
                      Table 1 illustrates the
                                                              Source: Office of Inspector General, 2004
                      number of administrators
                      who reported conducting criminal background and/or reference checks.
                      However, of the 159 LTC facilities that conducted criminal background
                      checks, 50 percent conducted checks that were limited in scope (covering
                      only their State or the individual’s reported previous addresses). Those
                      LTC facilities that conduct criminal background checks of limited scope
                      may fail to identify nurse aides who have criminal histories in other
                      States. This finding is consistent with a 1998 OIG audit, which
                      reported that in most States criminal background checks for nurse aides
                      were limited to State records. In that report, OIG recommended that
                      CMS consider developing a Federal requirement for criminal
                      background checks and CMS concurred.




    OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                             10
F IXE NE
E
R      C DCO I UM N TMGI E SV N E D AS TU I MO MN AS R Y
Δ     R E C O M M E N D A T I O N S                                                                          



                      RECOMMENDATIONS
                      Ensuring that only registered nurse aides without substantiated
                      adverse findings of abuse, neglect, or misappropriation are employed in
                      LTC facilities necessitates a partnership among States, CMS, and LTC
                      facilities. States and LTC facilities must diligently comply with Federal
                      regulations regarding nurse aide registries. The LTC facilities that do
                      not comply with Federal regulations or do not use available information
                      about potential nurse aides could expose facility residents to greater
                      risk of harm. We recommend that CMS:
                      o 	 Utilize existing communication channels (e.g., survey and
                              certification processes) to ensure that LTC facilities comply with
                              Federal regulations that require them to check the nurse aide
                              registries of other States that they believe will contain
                              information about an individual prior to hiring and to not employ
                              individuals as nurse aides for more than 4 months without
                              registration.
                      o 	 Encourage LTC facilities to use available resources (e.g., State
                              nurse aide registries, background check services) to ensure that
                              nurse aides with substantiated adverse findings or criminal
                              backgrounds are not employed. Possible methods that CMS could
                              use to achieve this include: (1) requiring all LTC facilities to
                              perform periodic (e.g., annual or biennial) inquiries of State nurse
                              aide registries on employed nurse aides and (2) requiring
                              comprehensive criminal background checks by all LTC facilities
                              prior to hiring nurse aides. CMS concurred with a 1998 OIG
                              recommendation that CMS consider developing a Federal
                              requirement for criminal background checks. While no such
                              requirement has yet been developed, the Medicare Prescription
                              Drug, Improvement, and Modernization Act of 2003 (Public
                              Law 108-173 section 307) established a Background Check Pilot
                              Program for LTC facilities or providers to conduct background
                              checks on prospective direct patient access employees in up to
                              10 States. The results of this pilot will be informative as to the
                              viability of this second option.


                      AGENCY COMMENTS
                      In its comments to the draft report, CMS recognized the effort and
                      expressed appreciation for OIG’s work related to nurse aide registry

  OEI-07-04-00140     N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                             11
R   E C O        M M E N D A T                         I O N               S


                      requirements. CMS concurred with our recommendations. CMS will
                      issue a survey and certification letter to all State survey agencies asking
                      them to share the communication with all LTC facility providers to
                      reinforce the importance of checking nurse aide registries and not
                      allowing nurse aides to work for more than 4 months without
                      successfully passing a competency evaluation examination. In addition,
                      CMS will utilize the existing Background Check Pilot Program to
                      provide insight on further efforts to ensure that only nurse aides in good
                      standing are employed in LTC facilities.


                      OIG RESPONSE
                      We appreciate CMS’s comments to this report and note that CMS is
                      taking action to address issues raised in this report. We look forward to
                      learning the results of the Criminal Background Check Pilot Program.
                      Changes were made to the report to reflect technical comments received
                      from CMS.




    OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                             12
Δ   A G E N C Y                       C O M M E N T S                                                    





OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                         13
A G   E N     C Y      C O            M M E N T                          S 





 OEI-07-04-00140    N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                           14
A G   E N     C Y      C O            M M E N T                          S 





 OEI-07-04-00140    N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                           15
Δ   A P P E N D I X                                ~           A

     Required Components of State Nurse Aide Registries


                  Pursuant to 42 CFR § 483.156(c), nurse aide registries must include:

                  (1) The full name of the individual,

                  (2) Identifying information,

                  (3) The date the individual became eligible for placement in the nurse
                      aide registry, and

                  (4) Information regarding substantiated adverse findings (as
                      appropriate).

                  Each State’s nurse aide registry must include information on
                  individuals who have active registrations and are thus employable and
                  on individuals whose records include substantiated adverse findings.
                  States are required to remove nurse aide registry records of individuals
                  who have not performed nursing or nursing-related services for a period
                  of 24 consecutive months, thus becoming inactive and no longer
                  employable. Individuals with records of substantiated adverse findings
                  must remain on the nurse aide registry permanently except in certain
                  cases of neglect.




OEI-07-04-00140   N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                         16
    Δ        A P P E N D I X                                  ~           B

              Confidence Intervals for Key Estimates



                                                                                                                                  Confidence Interval
                           Finding                                                              Point Estimate                                            Ratio
                                                                                                                                      95 Percent
Administrators Who Reported Rechecking Nurse Aide
                                                                                                                  43.5%                   36.5% - 50.7%    87/200
Registries
Administrators Who Reported Not Checking Other States'
                                                                                                                  55.0%                   47.8% - 62.0%   110/200
Nurse Aide Registries
LTC Facilities That Employed Nurse Aides Without
                                                                                                                  14.5%                    9.9% - 20.2%    29/200
Registrations For Longer Than 4 Months
LTC Facilities That Employed Nurse Aides With Expired
                                                                                                                    5.0%                    2.4% - 9.0%    10/200
Registrations
LTC Facilities That Established Additional Screening
                                                                                                                  84.5%                   78.7% - 89.2%   169/200
Procedures
            LTC Facilities That Conducted Background
                                                                                                                  50.3%                   42.3% - 58.3%    80/159
            Checks of Limited Scope




         OEI-07-04-00140     N U R S E A I D E R E G I S T R I E S : L O N G T E R M C A R E FA C I L I T Y C O M P L I A N C E   AND   PRACTICES
                                                                                                                                                            17
Δ    A C K N O W L E D G M E N T S                                                    


                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina C. Maree, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Tricia Fields, Team Leader
                  Brian T. Whitley, Project Leader

                  Dennis Tharp, Program Analyst

                  Michala Walker, Program Analyst

                  Sandy Khoury, Program Specialist

                  Tricia Davis, Director, Medicare & Medicaid Branch

                  Barbara Tedesco, Mathematical Statistician




OEI-07-04-00140   NURSE AIDE REGISTRIES: LONG   TERM   CA R E FAC I LI TY C O M P LI A N C E   AND   PRACTICES   18
